Memorandum No. D-2010-RAM-021              September 24, 2010




   American Recovery and Reinvestment Act of 2009 -
   Minot Air Force Base Facility and Construction Projects
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing, Acquisition and Contract Management Directorate, by phone (703) 604-9142
(DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations

AFB          Air Force Base
ECIP         Energy Conservation Investment Program
FAR          Federal Acquisition Regulation
FBO          Federal Business Opportunities
FPDS         Federal Procurement Data System
FSRM         Facilities Sustainment, Restoration, and Modernization
HVAC         Heating, Ventilating, and Air Conditioning
MILCON       Military Construction
OMB          Office of Management and Budget
USACE        U.S. Army Corps of Engineers
                                 INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202-4704 




                                                                       September 24,2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER) .
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                 ENGINEERS

SUBJECT: 	 American Recovery and Reinvestment Act of2009-Minot Air Force Base
           Facility and Consttuction Projects (Memorandum No. D-201O-RAM-021)

This memorandum provides resultsfi'om our audit of selected American Recovery and
Reinvestment Act projects at Minot Air Force Base, North Dakota. The audit included an
analysis of SUppOlt provided by the U. S. Almy Corps of Engineers-Omaha District. We
determined that Minot Air Force Base and U.S. Allny Corps of Engineers-Omaha
Dish'ict personnel properly planned, justified, and contracted for seven Recovery Act
projects.

We will continue to review DOD's progress and issue subsequent repOlis and memoranda
that will discuss om evaluation of DOD's implementation of the American Recovery and
Reinvestment Act. We are making no recommendations and do not require a wt'itten
response. Therefore, we are publishing this memorandum in final form.

We appreciate the cOUitesies extended to the staff. Please direct questions to me at
(703) 604-9201 (DSN 664-9201).
                                                                                  ,

                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and. Contract Management
Memorandum No. D-2010-RAM- 021 	                                                    September 24, 2010

              Results in Brief: American Recovery and
              Reinvestment Act of 2009—Minot Air Force
              Base Facility and Construction Projects
What We Did                                                	 Air Force and USACE contracting
                                                              personnel properly distributed Recovery
Our audit objective was to review the planning,
                                                              Act funding for the dormitory project;
funding, contracting, and initial execution of
                                                              the five Facilities Sustainment,
seven American Recovery and Reinvestment
                                                              Restoration, and Modernization
Act of 2009 (Recovery Act) projects at Minot
                                                              Recovery Act projects; and the energy
Air Force Base to determine whether the Air
                                                              conservation investment project.
Force complied with Recovery Act
requirements, Office of Management and
Budget guidance, the Federal Acquisition               What We Recommended
Regulation, and DOD implementing guidance.             This report contains no recommendations.
The audit also included an analysis of support
provided by the U.S. Army Corps of Engineers           Management Comments
(USACE)–Omaha District.                                The Air Force provided comments on a
                                                       discussion draft of this report.
What We Found
   	 Minot Air Force Base and USACE–                  Figure 1. Contractor’s Concept of the
      Omaha District personnel properly                168-Room Dormitory at Minot Air Force
      justified and adequately planned a               Base
      Military Construction Recovery Act
      project for a 168-room dormitory with
      an estimated cost of $28.3 million.

   	 USACE–Omaha District contracting
      personnel properly solicited, competed,
      and awarded the dormitory contract; and
      Minot Air Force Base contracting
      personnel did the same for five Facilities
      Sustainment, Restoration, and
      Modernization Recovery Act projects.

   	 For one energy conservation investment
      project, Minot Air Force Base personnel
      could have improved transparency by
      publicly disclosing their rationale for
      awarding a $3.25 million sole-source
      contract. Management corrected the
      oversight.                                       Source: U.S. Army Corps of Engineers–Omaha District




                                                   i
Table of Contents

Introduction	                                                             1


    Audit Objectives                                                      1

    Recovery Act Background                                               1

    Minot Air Force Base                                                  3

    Minot Recovery Act Appropriated Projects                              4

    U.S. Army Corps of Engineers–Omaha District                           4

    Review of Minot AFB and U.S. Army Corps of Engineers–Omaha

      District Internal Controls                                          4
	

Proper Planning, Funding, and Execution of Seven Recovery Act Projects    5


    Recovery Act Projects We Selected for Review                          5

    Military Construction Dormitory Project                               6

    Facilities Sustainment, Restoration, and Modernization Projects       7

    Energy Conservation Investment Program Project                        8

    Tracking and Reporting                                                9
	

Appendices

      A. 	Scope and Methodology                                          10

              Prior Audit Coverage                                       11
	
      B. Recovery Act Criteria and Guidance		                            12
	
Introduction
Audit Objectives
The primary objective of the audit was to determine whether DOD and its Components
were planning and implementing the American Recovery and Reinvestment Act of 2009
(Recovery Act) by meeting the requirements in the Recovery Act, Office of Management
and Budget (OMB) Memorandum M-09-10, ―         Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,‖ February 18, 2009, and subsequent
related guidance. For this audit, we reviewed the planning, funding, contracting, and
initial execution of Facilities Sustainment, Restoration, and Modernization (FSRM);
Energy Conservation Investment Program (ECIP); and Military Construction (MILCON)
projects at Minot Air Force Base (AFB), North Dakota, to determine whether the efforts
of the Air Force and Army Corps of Engineers complied with Recovery Act
requirements, OMB guidance, the Federal Acquisition Regulation (FAR), and DOD
implementing guidance. See Appendix A for a discussion of our scope and methodology.

Recovery Act Background
The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

       The purposes of this Act include the following:
              (1) To preserve and create jobs and promote economic recovery.
              (2) To assist those most impacted by the recession.
              (3) To provide investments needed to increase economic efficiency by
                  spurring technological advances in science and health.
              (4) To		 invest in transportation, environmental protection, and other
                  infrastructure that will provide long-term economic benefits.
              (5) To stabilize State and local government budgets, in order to minimize
                  and avoid reductions in essential services and counterproductive state
                  and local tax increases
                  .         .        .         .       .        .       .
       . . . the heads of Federal departments and agencies shall manage and expend the
       funds made available in this Act so as to achieve the purposes specified . . .
       including commencing expenditures and activities as quickly as possible
       consistent with prudent management.

Recovery Act Requirements
The Recovery Act and implementing OMB guidance require projects to be monitored and
reviewed. We grouped these requirements into the following four phases: (1) planning,
(2) funding, (3) execution, and (4) tracking and reporting. The Recovery Act requires
that projects be properly planned to ensure the appropriate use of funds. Review of the
funding phase is to ensure the funds were distributed in a prompt, fair, and reasonable
manner. Review of the project execution phase is to ensure that contracts awarded with
Recovery Act funds were transparent, competed, and contain specific FAR clauses; that
Recovery Act funds were used for authorized purposes; and that instances of fraud,
waste, error, and abuse were mitigated. Review of the execution phase also ensures that

                                                   1
	
program goals were achieved, including specific program outcomes and improved results
on broader economic indicators; that projects funded avoided unnecessary delays and
cost overruns; and that contractors or recipients of funds reported results. Review of the
tracking and reporting phase ensures that the recipients’ use of funds was transparent to
the public and that benefits of the funds were clearly, accurately, and timely reported.

Recovery Act Contracting Requirements
The Recovery Act establishes transparency and accountability requirements. Federal
Acquisition Circular 2005-32, March 31, 2009, provides policies and procedures for the
Government-wide implementation of the Recovery Act and guidance on special contract
provisions. Federal Acquisition Circular 2005-32 amended the FAR and provided
interim rules that made FAR solicitation provisions and contract clauses immediately
available for inclusion in contracts for Recovery Act work.

The specific FAR Recovery Act requirements are for:

       buying American construction material,
       protecting contractor whistleblowers,
       publicizing contract actions,
       reporting, and
       giving the Government Accountability Office and agency Inspectors General
       access to contracting records.

Federal Government organizations meet requirements for Recovery Act contract actions
by posting information on the Federal Business Opportunities (FBO) and Federal
Procurement Data System (FPDS) Web sites. FAR Subpart 5.7, ―    Publicizing
Requirements Under the American Recovery and Reinvestment Act of 2009,‖ directs
contracting officers to use the Government-wide FBO Web site (http://www.fbo.gov) to:

        identify the action as funded by the Recovery Act,
	
        post pre-award notices for orders exceeding $25,000,
	
        describe supplies in a clear narrative to the general public, and
	
        provide the rationale for awarding any contracting actions that were not both 

        fixed-price and competitive.
	

FBO is the Federal Government’s central source of Federal procurement opportunities. 

FBO is a Web-based portal that allows agency officials to post Federal procurement 

opportunities and contractors to search and review those opportunities. Agencies also 

post contract award notices on FBO. In addition, to provide transparency, FBO has a
	
separate section identifying Recovery Act opportunities and awards. 


FPDS is the Federal Government’s central source of procurement information. 

Contracting officers enter information, to include the Treasury Account Symbol, in the
	
FPDS for all Recovery Act contract actions. The Treasury Account Symbol enables 

FPDS to provide transparency by generating and posting a report containing all Recovery
	
Act contract actions. 


                                            2
	
OMB Recovery Act Guidance
Criteria for planning and implementing the Recovery Act continue to change as OMB
issues additional guidance, and DOD and the Components issue their implementation
guidance. OMB has issued 10 memoranda and 1 bulletin to address the implementation
of the Recovery Act. See Appendix B for Recovery Act criteria and guidance.

DoD Recovery Act Program Plans
Under the Recovery Act, Congress appropriated approximately $12 billion to DOD for
the following programs: Energy Conservation Investment, FSRM, Homeowners
Assistance, MILCON, Near Term Energy-Efficient Technologies, and U.S. Army Corps
of Engineers (USACE) Civil Works.

The values of the six programs are shown in the following table.
Table 1. DOD Agency-Wide and Program-Specific Recovery Act Programs


                            Program                                  Amount
                                                                   (in millions)
     Energy Conservation Investment                                      $120
     Facilities Sustainment, Restoration, and Modernization             4,260
     Homeowners Assistance                                                555
     Military Construction                                              2,185
     Near Term Energy-Efficient Technologies                              300
     U.S. Army Corps of Engineers Civil Works                           4,600
        Total                                                        $12,020

The Recovery Act divides the approximately $12 billion among 32 DOD and USACE
line items of appropriations.

Minot Air Force Base
Minot AFB, in North Dakota, is home to two major Air Force units—the 5th Bomb Wing
and the 91st Missile Wing. The 5th Bomb Wing is an Air Combat Command unit and host
wing, and the 91st Missile Wing is a component of Air Force Space Command. In 2009,
the 91st Missile Wing transitioned to the Air Force Global Strike Command, and the
5th Bomb Wing followed suit on February 1, 2010. Accordingly, the 5th Bomb Wing is
responsible for administering Recovery Act facilities projects at Minot AFB. The Air
Combat Command will provide funding and contracting support until the end of the fiscal
year 2010.




                                            3
	
Minot Recovery Act Appropriated Projects
On May 15, 2009, DOD assigned 20 Recovery Act projects with an estimated cost of
$47.5 million to Minot AFB as stated in DOD Agency-Wide and Program-Specific
Recovery Act Program Plans. At the time of our audit, the 5th Bomb Wing administered
18 FSRM projects with an estimated cost of $16.1 million and an ECIP project with an
estimated cost of $3.07 million. The USACE–Omaha District administered the MILCON
dormitory project with an estimated cost of $28.3 million. On December 24, 2009, the
Principal Deputy Under Secretary of Defense (Comptroller) notified Congress that the
Air Force added a second Air Force MILCON Recovery Act dormitory project at Minot
AFB. The Air Force budgeted the second dormitory project at $22 million. The
USACE–Omaha District also administered this project.

We reviewed five Minot FSRM projects, valued at $5.29 million; the initial dormitory
project; and the ECIP project.

U.S. Army Corps of Engineers–Omaha District
USACE provide vital public engineering services in peace and war to strengthen our
Nation's security, energize the economy, and reduce risks from disasters.

Review of Minot AFB and U.S. Army Corps of
Engineers–Omaha District Internal Controls
Minot AFB and USACE–Omaha District internal controls over the planning, funding,
contracting, and initial execution of the seven Minot AFB Recovery Act projects
reviewed were effective as they applied to the audit objectives.




                                           4
	
Proper Planning, Funding, and Execution of
Seven Recovery Act Projects
Minot AFB and USACE–Omaha personnel properly justified and adequately planned all
Seven Recovery Act projects we reviewed. They also properly competed and awarded
the contracts, and the contracts contained the required Recovery Act FAR clauses. Minot
AFB personnel and USACE–Omaha personnel properly solicited and awarded contracts
for a 168-room dormitory troop housing MILCON project and for the five FSRM
projects reviewed (see Table 2) totaling $27.4 million. However, for the ECIP project,
Minot AFB personnel could have improved transparency by publicly disclosing the
rationale for awarding a $3.25 million sole-source contract.

Recovery Act Projects We Selected for Review
We reviewed seven Minot AFB Recovery Act projects. Table 2 lists the Minot AFB
projects reviewed.

                        Table 2. Minot AFB Recovery Act Projects
                                                                          Recovery
                                                              Award          Act        Award
Contract Number        Project No.       Project Title         Date       Amount        Amount
W9128F-09-C-0037        QJVF-07-      MILCON:                8/25/2009   $28,300,000   $18,860,497
                          2003        Dormitory (168
                                      Rooms)
FA4528-10-D-3001        QJVF-06-      ECIP: Repair           4/30/2010   $3,250,000*    $3,250,000
                          6016        Missile Alert
                                      Facilities Heating,
                                      Ventilation, and Air
                                      Conditioning
                                      (HVAC)
FA4528-09-C-3003        QJVF-05-      FSRM: Repair Lift      4/15/2009     $450,000      $423,141
                          0088        Station 2112 –
                                      Family Housing

FA4528-08-D-3003        QJVF-10-      FSRM: Cathodic         4/17/2009     $646,000      $593,900
                          6000        Protection System
FA4528-09-C-3008     QJVF-07-0079     FSRM: Repair           4/24/2009    $1,163,000     $748,106
                                      Electrical Feeder-
                                      Dorms
FA4528-09-C-3010        QJVF-05-      FSRM: Repair            5/8/2009    $1,374,000    $1,038,000
                          0063        HVAC Bldg 445
FA4528-09-C-3009        QJVF-09-      FSRM: Repair Skid      7/31/2009    $1,585,000    $2,487,500
                          0076        Row Pavements
*Recovery Act funded estimate of $3,250,000 was originally $3,074,000



                                                  5
	
Military Construction Dormitory Project
The Air Force budgeted the Minot dormitory project with $28.3 million of Recovery Act
MILCON funding. On August 25, 2009, USACE contracted for the dormitory at
$18,860,497, which included $18,007,710 for primary facility construction and $852,787
for options, including supporting facilities such as utilities, pavement, demolition,
asbestos removal, and landscaping.

Dormitory Project Planning and Estimation
Minot AFB personnel initially overestimated the cost of the 168-room dormitory
Recovery Act project. The dormitory’s projected $18.86 million contract value was
34 percent less than the Air Force-approved estimate of $28.3 million. The Air Force
overestimate was partially attributable to a $5.4 million supporting facilities cost variance
caused by:

       lack of initial design-specific requirements for the supporting facilities,
       lack of an authorization threshold for a supporting facilities estimating limit, and
       double-counting most utility requirements in the cost estimate of the primary
       facility and the supporting facilities.

However, USACE–Omaha personnel properly revised the Air Force dormitory project
estimate before soliciting and awarding the contract.

Minot AFB and USACE–Omaha District personnel maintained supporting
documentation for the validity of the reviewed projects. Minot AFB and USACE–
Omaha District maintained appropriate work requests and funding request documents in
the project or contract files. Specifically, the Air Force properly documented
requirements on the Department of Defense Form 1391, ―       Military Construction Project
Data,‖ for 168 rooms, including a total area of 6,384 square meters and a unit cost of
$2,786 per square meter for the primary facility. The 168-room requirement was a valid
request to help reduce a projected Minot AFB space deficit of more than 800 rooms. The
total area request was valid because Air Force personnel calculated the total area at
168 rooms multiplied by 38 square meters, which equaled the Air Force’s DD 1391
MILCON request of 6,384 square meters for ―      Primary Facilities.‖ The Air Force
Unaccompanied Housing Design Guide allows a maximum of 33 square meters per
(private) room and an extra 5 square meters per room for sub-arctic climates or
specifically a ―harsh climate‖ as defined by Air Force Instruction 32-6002, ―  Family
Housing Planning, Programming, Design, and Construction.‖ The unit cost data of
$2,786 per square meter was acceptable because Air Force personnel used the Air Force
Cost Handbook and United Facilities Code as the basis for the estimate. Also, USACE’s
cost estimate (based on Tri-Services Automated Cost Engineering Systems
Microcomputer Aided Cost Engineering System 2nd Generation) and the contract award
had approximate values. We concluded that the 168-room dormitory project had a valid
requirement, a valid total area per room requirement, and an acceptable cost per area unit
estimate for the primary facility.



                                              6
	
Dormitory Project Funding and Contracting
Air Combat Command personnel properly distributed the MILCON funds for the
Dormitory project at Minot AFB and appropriately routed the funds to the USACE–
Omaha District. USACE–Omaha personnel solicited and provided contract notice for the
dormitory project to the public by posting required information on the FBO Web site.
USACE–Omaha District personnel also included the required FAR clauses in the
awarded dormitory Recovery Act contract. The dormitory solicitation was competed and
resulted in a fixed-price-type contract.

Facilities Sustainment, Restoration, and Modernization
Projects
Minot AFB personnel properly planned and justified the five selected FSRM Recovery
Act projects and properly distributed Recovery Act funds to the 5th Bomb Wing for the
FSRM projects.

FSRM Projects Planning and Estimation
Minot AFB civil engineering and contracting personnel properly planned and justified the
five selected FSRM Recovery Act projects. The FSRM projects had valid requirements to
ensure the appropriate use of funds. Minot AFB maintained supporting documentation,
including appropriate work request and funding request documents for the reviewed
projects. Therefore, the planning for the Minot AFB projects selected for review
complied with the intent of the Recovery Act.

FSRM Projects Funding and Contracting
Air Combat Command and Air Force Space Command personnel properly distributed
Recovery Act funds to the 5th Bomb Wing for the FSRM projects reviewed. Minot AFB
personnel solicited and provided contract notice for FSRM projects to the public by
posting required information on the FBO Web site. In addition, Minot AFB met
Recovery Act goals by fostering competition and promptly awarding FSRM contract
actions. For example, Minot AFB contracting personnel began awarding FSRM
contracts for Recovery Act projects immediately after the receipt of Recovery Act funds.
The FSRM solicitations were competed and resulted in fixed-price-type contracts. In
addition, Minot AFB installation contracting personnel included the required FAR
clauses in the awarded FSRM Recovery Act contracts reviewed as noted in Table 3.




                                           7
	
                        Table 3. Required Recovery Act FAR Clauses
             FAR           QJVF-          QJVF-            QJVF-        QJVF-          QJVF-
            Clauses        05-0088        10-6000          05-0063      07-0079        09-0076
           52.203-15         Yes            Yes              Yes          Yes            Yes
           52.204-11          Yes            Yes            Yes            Yes           Yes
            52.215-2          Yes            Yes            Yes            Yes           Yes
            52.222-6          Yes            Yes            Yes            Yes           Yes
           52.225-21          Yes            Yes            Yes            Yes           Yes
           52.225-22          Yes           N/A             Yes            Yes           Yes
           52.225-23         N/A            N/A             N/A           N/A            N/A
           52.225-24         N/A            N/A             N/A           N/A            N/A
            52.244-6          Yes            Yes            N/A            Yes           N/A



Energy Conservation Investment Program Project
The Minot AFB ECIP project was to repair the Missile Alert Facilities heating,
ventilation, and air conditioning (HVAC) systems. The Recovery Act initially funded the
project for $3,074,000, but the project required $176,000 of additional funding.
USACE–Omaha initially managed the Minot AFB ECIP project before Minot AFB
personnel decreased the scope of the project and increased the funding request to
$3.25 million.

ECIP Project Planning and Estimation
The FY 2009 Air Force-approved DD Form 1391 noted that the ECIP Recovery Act
project was to replace an inefficient oil-fired HVAC system with highly efficient ground-
source heat pumps. It also noted that an economic analysis performed on the project
resulted in a savings-to-investment ratio of 2.06 and a simple payback period of
8.55 years, with an annual savings of 9,109 million British thermal units and $83,546 per
year. These results met the applicable ECIP standards, such as a minimum ECIP savings-
to-investment ratio of 1.25 and a maximum project payback period of 10 years, which
was included in a March 1993 Office of Assistant Secretary of Defense Memorandum,
―Energy Conservation Investment Program Guidance.‖ These results also met the energy
savings disclosure requirements in DoD Instruction 4170.11, ―   Installation Energy
Management,‖ November 22, 2005.

ECIP Project Funding and Contracting
USACE contracting personnel stated that USACE–Omaha personnel solicited bids for the
Minot ECIP project on March 12, 2009. USACE–Omaha personnel received two
contractor proposals in April 2009, but neither was within the range of the $3.074 million
Recovery Act funding. On May 29, 2009, USACE canceled the project, and it was


  The updated DoD Instruction 4170.11, December 11, 2009, continues to require a minimum ECIP
savings-to-investment ratio of 1.25 and an implementation goal for projects with a payback period of less
than 10 years (with exceptions).

                                                     8
	
returned to Minot AFB. Minot AFB officials planned to award a contract as a sole-
source 8(a) set-aside. On October 29, 2009, Minot AFB posted the project opportunity
notice on the FBO Web site and updated the FBO Web site on January 22, 2010. Both
postings informed contractors that Minot AFB intended to award the contract to a sole-
source contractor. Minot AFB and the contractor did not agree to a contract for the
original $3.074 million Recovery Act funded amount and the original scope of work.

ECIP Project Funding Revision
On April 6, 2010, the Principal Deputy Under Secretary of Defense (Comptroller)
notified Congress of a revision to the Minot AFB ECIP project funding and scope. DOD
added $176,000 in ECIP project funding derived from bid savings on other Defense-wide
MILCON projects, making $3.25 million available for the Minot AFB project. The
revision also noted a reduction in the ECIP project application from 15 to 10 Minot AFB
sites. The congressional notification stated that the reduction in sites, from 15 to 10, was
a result of higher than expected contractor costs resulting from technology costs that
exceeded original estimates.

ECIP Sole-Source Contract Award Lacked Public Rationale
On April 30, 2010, Minot AFB officials issued a task order in the amount of $3,250,000,
which represents Recovery Act funded amount, against indefinite delivery, indefinite
quantity contract FA4528-10-D-3001, valued at $6,500,000, for an 8(a) set-aside. This
particular set-aside was not competed. We concluded that Minot and the USACE-Omaha
properly planned the project and that the project had valid requirements to ensure the
appropriate use of funds. However, Minot AFB personnel did not fully execute,
according to FAR 5.705(b), ―  Publicizing-post-award,‖ the requirement to post the
rationale to the FBO Web site in situations in which a contract award occurs without
competition. Minot AFB personnel corrected the oversight as of August 17, 2010, by
stating in the FBO Web site, with the authority of FAR 19.8(b) and 6.302-5(b)(4), that no
reasonable expectation existed that at least two eligible and responsible 8(a) firms would
submit offers.

Tracking and Reporting
We did not review the tracking and contractor reporting of the contracts because, at the
time of our review, OMB’s recipient reporting requirements were not in effect. We will
review the reporting of selected Air Force Recovery Act actions in future reports.




                                             9
	
Appendix A. Scope and Methodology
We conducted this audit from August 2009 through September 2010 in accordance with
generally accepted government auditing standards. Generally accepted government
auditing standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objectives.

Scope
We selected seven Minot AFB Recovery Act projects to review. One of the 7 projects,
the 168-room dormitory, was 1 of 83 DoD-wide high-risk Recovery Act projects
identified through use of the modified Delphi technique as noted below.

We visited Minot AFB, North Dakota, for the FSRM, ECIP, and MILCON projects and
visited USACE-Omaha District for the MILCON project. Our review included
interviewing Air Force personnel at the Minot AFB, 5th Contracting Squadron, and the 5th
Civil Engineer Squadron. We interviewed contract and program personnel at the
USACE-District office. At both locations, we reviewed requirements and contracting
and financial documentation from August 2009 through July 2010. We used this
supporting documentation to determine whether contract solicitations and awards met
OMB, FAR, and DOD Recovery Act implementation and transparency requirements.

Methodology
Our overall audit objective was to evaluate DOD’s implementation of plans for the
Recovery Act of 2009. To accomplish our objective, we audited the planning, funding,
and execution of Recovery Act projects to determine whether efforts of the 5th Bomb
Wing at Minot AFB, North Dakota, and USACE–Omaha District complied with
Recovery Act requirements, OMB guidance, the FAR, and DOD implementing guidance.
Specifically, we determined whether:

       the selected projects were adequately planned to ensure the appropriate use of
       Recovery Act funds (Planning);
       funds were awarded and distributed in a prompt, fair, and reasonable manner
       (Funding); and
       contracts contained required Recovery Act FAR clauses (Project Execution);
       projects avoided unnecessary delays and cost overruns (Project Execution); and
       recipients’ use of funds was transparent to the public and the benefits of the funds
       were clearly, accurately, and timely reported (Reporting).

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of

                                            10
	
waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators. We used
information collected from all projects to update and improve the risk assessment model.
We selected 83 projects with the highest risk rankings; auditors chose some additional
projects at the selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

Use of Computer-Processed Data
We used computer-processed data to complete this audit. Specifically, we used the
notices posted on the FBO Web site, data reported in FPDS, the Air Force Recovery Act
Financial and Activity Report, and contract documentation from the Electronic Data
Archive System posted from March 2009 through May 2010. We tested the accuracy of
this data by comparing the project data reported on different systems for consistency and
by meeting with program officials responsible for reporting on the applicable Recovery
Act requirements. Our audit was focused on the reporting of contract actions for specific
Air Force projects. From these procedures, we concluded that the DOD data were
sufficiently reliable for our purposes.

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability




                                           11
	
Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

       U.S. House of Representatives Conference Committee Report 111-16, ―     Making
       Supplemental Appropriations for Job Preservation and Creation, Infrastructure
       Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
       State and Local Fiscal Stabilization, for the Fiscal Year Ending September 30,
       2009, and for Other Purposes,‖ February 12, 2009

       Public Law 111-5, ―
                         American Recovery and Reinvestment Act of 2009,‖
       February 17, 2009

       OMB Memorandum M-09-10, ―    Initial Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009,‖ February 18, 2009

       OMB Bulletin No. 09-02, ―Budget Execution of the American Recovery and
       Investment Act of 2009 Appropriations,‖ February 25, 2009

       White House Memorandum, ―G
                                overnment Contracting,‖ March 4, 2009

       White House Memorandum, ―E
                                nsuring Responsible Spending of Recovery Act
       Funds,‖ March 20, 2009.

       OMB Memorandum M-09-15, ―   Updated Implementing Guidance for the
       American Recovery and Reinvestment Act of 2009,‖ April 3, 20091

       OMB Memorandum M-09-16, ―     Interim Guidance Regarding Communications
       With Registered Lobbyists About Recovery Act Funds,‖ April 7, 2009

       OMB Memorandum M-09-19, ―     Guidance on Data Submission under the Federal
       Funding Accountability and Transparency Act (FFATA),‖ June 1, 2009

       OMB Memorandum M-09-21, ―      Implementing Guidance for the Reports on Use
       of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,‖
       June 22, 20092

       OMB Memorandum M-09-24, ―     Updated Guidance Regarding Communications
       with Registered Lobbyists About Recovery Act Funds,‖ July 24, 2009




                                           12
	
         OMB Memorandum M-09-30, ―
                                 Improving Recovery Act Recipient Reporting,‖
         September 11, 2009

         OMB Office of Federal Procurement Policy, ― Interim Guidance on Reviewing
         Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
         Clause 52.204-11,‖ September 30, 20092

         OMB Memorandum M-10-08, ―     Updated Guidance on the American Recovery
         and Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of
         Job Estimates,‖ December 18, 20092

         OMB Memorandum M-10-14, ―     Updated Guidance on the American Recovery
         and Reinvestment Act,‖ March 22, 20102

         White House Memorandum, ―Combati     ng Noncompliance With Recovery Act
         Reporting Requirements,‖ April 6, 20102

         OMB Memorandum M-10-17, ―    Holding Recipients Accountable for Reporting
         Compliance under the American Recovery and Reinvestment Act,‖ May 4, 20102


End Notes
1
  Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     13
	
